<html>
<title> - UNITED STATES SECRET SERVICE: EXAMINING PROTECTIVE AND INVESTIGATIVE MISSIONS AND CHALLENGES IN 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 UNITED STATES SECRET SERVICE: EXAMINING PROTECTIVE AND INVESTIGATIVE 
                    MISSIONS AND CHALLENGES IN 2012

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2011

                               __________

                           Serial No. 112-44

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-355 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Brian Higgins, New York
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Jeff Duncan, South Carolina              (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     4

                               Witnesses

Mr. Mark Sullivan, Director, United States Secret Service, United 
  States Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                             For the Record

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Letter From the Federal Law Enforcement Officers Association...     3

 
 UNITED STATES SECRET SERVICE: EXAMINING PROTECTIVE AND INVESTIGATIVE 
                    MISSIONS AND CHALLENGES IN 2012

                              ----------                              


                     Wednesday, September 14, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:14 p.m., in 
Room 210, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Quayle, Speier, 
and Hahn.
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order. The 
subcommittee today is meeting to hear the testimony of Director 
Mark Sullivan of the United States Secret Service regarding the 
missions and challenges that we will face in 2012.
    I want to note for the record we anticipate briefly being 
called to votes and very much appreciate your presence today, 
and we will be looking for a way to try to accommodate both of 
these in a way that will fit the flow. Hopefully what we may be 
able to do is to have an opening statement from myself and the 
Ranking Member, and with respect to time, it may make more 
sense to come back, allow you to have your testimony, and then 
we can go into questions.
    Before we begin today's hearing, I would like to thank the 
Budget Committee Chairman Paul Ryan and his staff for allowing 
us to use his hearing room. There was an overflow today due to 
a conflict with another subcommittee markup. I invited Chairman 
Ryan to today's hearing, but he made it clear when he decided 
not to run for President, that he prefers to keep his distance 
from the Secret Service.
    Today's hearing is an examination of the duties, 
responsibilities, and performance of the United States Secret 
Service, and we will hear the challenges that we will face in 
the coming year, particularly the protection challenges in the 
upcoming 2012 Presidential election cycle, in light of all of 
the issues that we see on a global scale. The hearing follows 
our past examination of the Department of Homeland Security's 
intelligence enterprises. It will help us continue in our 
efforts to ensure effective Congressional oversight of 
counterterrorism and intelligence-related functions of the 
Department of Homeland Security.
    The Secret Service is a highly-regarded institution best 
known for protecting the President of the United States. 
However, what is often overlooked is that its work goes far 
beyond protecting the President. In addition to its protective 
mission, the Secret Service ensures the integrity of the United 
States currency, which is vital in a functioning country in the 
world economy. Accordingly, the mission includes everything 
from running beside the President's caravan to running 
counterfeit money stings in Colombia and penetrating the 
networks of Russian hackers. It is a global and multifaceted 
law enforcement organization.
    Yesterday a number of directors, Petraeus, Muller, Clapper, 
Olson, Napolitano, all testified before Congress about the 
evolving terrorist threat posed by lone wolf terrorists and 
radicalized extremists. I think this is an issue that we have 
to be anticipating in 2012.
    I would like to point out that the Secret Service also 
deals with terrorist threats against the President and 
protectees regularly and have long experience and have 
expertise with the concept of lone wolves, the two of them 
enormous challenges that relate to this terrorist threat.
    The 2012 Presidential election cycle is fast approaching. 
Some may say it is already here. For the Service this includes 
candidate protection and the security at both Democratic and 
Republican Conventions. So I look forward to hearing from 
Director Sullivan how the Service is adjusting with your 
tightened budget environment to meet this critical mission, 
particularly in light of the threat environments and the many 
demonstrations that can be anticipated in events like that.
    In addition to protection, the Service's investigative 
responsibilities have expanded to include financial crimes like 
identity theft, counterfeiting, and computer fraud and 
computer-based attacks on the Nation's financial, banking, and 
telecommunications infrastructure. Ten years ago, in the wake 
of 9/11, the Secret Service took on an expanded mission with 
the investigation of cybercrimes, recently opened an office in 
Estonia to combat Russian cybercrime. The PATRIOT Act calls for 
the establishment of a Nation-wide electronic crimes task force 
in order to bring together multiple components to help 
investigate, detect, and mitigate or prevent attacks on the 
Nation's financial and critical infrastructure.
    As a former United States attorney, I appreciate the 
remarkably expanding role and work closely with the Secret 
Service in all of these capacities, but particularly as the 
emerging roles of the Electronic Crimes Task Force in fighting 
cybercrime.
    As part of the mission, the Secret Service plays the lead 
role in planning, coordination, and implementation of security 
operations at special events of National significance. The next 
Secret Service will be leading security efforts at the Asia-
Pacific Economic Cooperation summit in Hawaii, the Presidential 
State of the Union Address, and significantly, to me, both the 
NATO and the Group 20, G-20, meetings which will be held in 
Chicago, and I think during the time when you will already be 
doing substantial Presidential protection.
    In addition, next week the Secret Service will be heavily 
involved in protecting the heads of state at the annual United 
Nations General Assembly in New York City again during a period 
of time when we may be looking at a relatively significant 
international event if, in fact, there is a movement forward by 
the Palestinian organizations to seek international 
recognition.
    The success of the Secret Service depends upon the constant 
and unrelenting support of the entire intelligence community 
paired with positive relationships with State and local 
agencies. I believe it is a model for the entire Department in 
developing relationships with State and local agencies and 
leveraging the rest of the intelligence community. I am going 
to ask I have unanimous consent for a letter from the Federal 
Law Enforcement Officers Association that I would like to 
insert into the record in support of that effort. So without 
objection, so ordered.
    [The information follows:]
                                    August 2, 2011.
The Honorable Patrick Meehan,
Chairman, Subcommittee on Counterterrorism and Intelligence, Committee 
        on Homeland Security, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Mr. Chairman: I am writing on behalf of the membership of the 
Federal Law Enforcement Officers Association (FLEOA), to express our 
views with respect to the subcommittee hearing entitled ``Secret 
Service Missions and Outlook.'' We respectfully request that this 
letter be made part of the record for this hearing.
    The Federal Law Enforcement Officers Association (FLEOA) is the 
largest non-partisan, non-profit law enforcement association 
representing 26,000 Federal law enforcement officers from 65 agencies. 
FLEOA is considered the ``voice'' of Federal law enforcement and has 
advocated for measures including the Law Enforcement Officers Safety 
Act (LEOSA), the Federal Law Enforcement Badge of Bravery, and the 
James Zadroga 9/11 Health and Compensation Act. FLEOA has and continues 
to work with Members of Congress towards the goal of ensuring that 
Federal law enforcement officers and their agencies are supported, 
funded, and appropriately supported in their missions.
    The U.S. Secret Service is one of the premier law enforcement 
agencies in the world. FLEOA represents Secret Service Special Agents 
and has established a strong relationship with Director Sullivan, who 
has persevered in his tenure as Director through some difficult 
challenges faced by his agency. The Secret Service's protective mission 
is paramount to National security and its investigative mission is a 
lynchpin in securing our Nation's financial system.
    From its inception, the Secret Service was given broad 
investigative then protective authority as it was one of the first 
Federal investigative law enforcement agency in our Nation's history. 
Recently, the agency has faced funding and staffing concerns as a 
result of the broad budget issues the Federal Government faces. In 
2012, the next Presidential Campaign will occur and FLEOA feels it is 
imperative that the Congress support and fulfill the needs outlined by 
the Secret Service.
Increases in Funding
    Over time, Secret Service jurisdiction has expanded and the agency 
has broadened both its investigative and protective missions. Often 
these increases occur at the behest of either the current 
administration or Congress. Without regard to their situation, the 
Secret Service and its Special Agents answer the call and effectively 
carry out any assigned mission.
    Unfortunately though, these enhanced authorities have not been 
commensurate with the level of funding and support it has received. The 
agency has often found itself doing without or having to come back to 
the Congress and appeal for more. For an agency with such a stellar and 
distinct reputation and mission, the budgeting process has not mirrored 
it or its agents' extensive mission or needs. FLEOA recommends that the 
Congress raise the level of Secret Service funding to allow the agency 
to maintain its stature in the law enforcement world including in 
research and development so the Secret Service can stay with advances 
in ballistics, armor, explosives, and other protective technologies.
Campaign Year Pay Cap Waiver
    Agent staffing is a critical component of every Presidential 
Campaign. For the Secret Service, a Presidential Campaign equals a full 
deployment of its personnel and resources. Agents of the Secret Service 
perform a valiant service every 4 years for the people of the United 
States. Staffing and managing the Presidential Campaign and ensuring 
the smooth transition of the Executive branch, is not a light 
assignment. Secret Service Agents and its support staff work extensive 
hours, travel to multiple destinations and encumber an enormous 
responsibility. The Federal Government's pay cap often blocks 
remuneration to the agency's most senior Special Agents who hold the 
command positions during a campaign. This has a negative effect on 
morale and retention. This full deployment of Secret Service personnel 
and assets occurs within the tight parameters of a security matrix that 
works and is effective. The campaign's logistical challenges are 
exacerbated by hiring freezes and attrition--so often the agents endure 
fatigue while bearing the challenge of last-minute schedule changes, 
added-on campaign stops, or stadium rally site added the night before.
    FLEOA has and continues to recommend a waiver to the Federal pay 
cap for the campaign year. As is done with Department of Defense 
civilian personnel in CENTCOM or AFRICOM, this would assist with 
recruitment and retention and acknowledge the hard work and sacrifice 
they make on behalf of the American people during that intensive year.
    FLEOA supports the Secret Service with its missions and hopes the 
Congress will look to support the agency commensurate with the level of 
dedication and sacrifice its agents perform everyday for the American 
people.
            Sincerely,
                                                 Jon Adler,
                                                National president.

    Mr. Meehan. Before I begin, I would like to note as well 
this past weekend was the anniversary, as we all know, many of 
us attended numerous events, of the tragic events of 9/11, 
including the attacks on the World Trade Center where the New 
York field office of the Secret Service was located. Sadly, the 
Service lost the life of Special Master Officer Craig Miller, 
who was actually one of those heroes who ran into the building 
helping to save others. So we honor his memory today and the 
other Secret Service employees who were among the first 
responders of 9/11.
    So, with that, I am honored to welcome Mark Sullivan, the 
Director of the Secret Service, here today to testify. You are 
a busy man. I want to thank you for taking the time to be with 
us to--in preparation for our discussions about the great 
challenges you face and with your agency in anticipation of 
2012.
    Now I would like to recognize the Ranking Minority Member 
of the subcommittee, the gentlewoman from California, Ms. 
Speier for her statements.
    Ms. Speier. Mr. Chairman, thank you for holding this 
hearing today. I apologize for my tardy arrival to you, to Mr. 
Sullivan, and to all the members of the public.
    Let me say at the outset, Director Sullivan, we thank you 
for participating in this hearing today and for enlightening 
not just us, but the public in general about the important work 
of the Secret Service and to review some of the challenges that 
you have had in the past.
    This is a critical time for the Secret Service as the 
campaign season for 2012, for the Presidency, begins to heat 
up. In the last Presidential election, then-candidate Barack 
Obama reportedly received a record number of threats requiring 
him to get Secret Service protection earlier in the campaign 
cycle than any candidate in the history of this country.
    We now face a diverse array of threats from terrorist 
groups, lone wolves, deranged individuals, and others we may 
not even know about. We learned that dramatically last January 
when our dear friend and colleague Gabrielle Giffords was shot 
and six people killed in Tucson, Arizona.
    In what is sure to be an eventful election year, does the 
Secret Service have all the resources and support it needs to 
protect the candidates in this constrained budget environment? 
A question for you, Director Sullivan.
    Although the Secret Service has done an excellent job in 
keeping our candidates safe in past elections, it has had 
trouble managing its budget. The DHS inspector general recently 
released a report finding that the Secret Service violated the 
Antideficiency Act when the CFO failed to notify DHS and the 
Congress that the Service had overspent its appropriated funds 
during the hectic 2008 campaign. In the run-up to the 2012 
campaign, I am interested to hear about what changes have been 
made and controls put in place to prevent this from happening 
again.
    The Secret Service's mandate goes beyond just protecting 
the President and candidates. They also have the responsibility 
for protecting other Government officials, foreign dignitaries, 
and the security for designated NSSEs. As the Chairman has 
noted, providing protection for the U.N. Assembly, which has 
just begun its work and sits in the heart of Manhattan, also 
falls to the Secret Service. We are reminded by events over the 
past week with the sobering news of a credible threat 
surrounding the 9/11 10th anniversary that these events of 
special significance also face threats from actors and actions 
of terror.
    In addition, there are many events over the next year that 
the Secret Service must prepare for, including the APEC summit, 
the G-20 summit, and the Democratic and Republican National 
Conventions. It is critical that all of the Secret Service's 
protective activities are conducted with the appropriate 
planning, resources, and oversight.
    The Secret Service has a vital mission, but it has faced 
significant criticism in the past. The Secret Service has come 
under fire from many, including the Ranking Member of the full 
committee, who points out that the Service's poor history of 
promoting a diverse workforce and for several discriminatory 
practices it has been accused of in the past several years. Of 
course, the last time Director Sullivan testified before the 
committee, before my time on the panel, it was to answer to the 
much-publicized White House security breaches. I am looking 
forward to finding out if these issues have been addressed once 
and for all.
    I am also eager to learn more about the Secret Service's 
other important mission, to investigate crimes against our 
financial institutions and maintain the security of our 
economy. At first this meant the Secret Service had to protect 
our currency from counterfeiters, but the way we conduct 
business, from personal payments to transactions between large 
institutions, has drastically changed in the internet era, and 
our economic security is threatened by a diverse array of 
criminal activity, from counterfeiting to credit card fraud to 
hacking.
    So let me underscore this last question. Does the Secret 
Service have the expertise and the resources it needs to keep 
up with the times and be effective as a crime fighter in this 
dynamic environment?
    The Secret Service is absolutely vital to our Nation's 
security and prosperity, and I commend the men and women of the 
Secret Service for carrying out their work with diligence on 9/
11 and every day of the year.
    Once again, I want to welcome you, Director Sullivan, and I 
look forward to working with the Secret Service to ensure they 
have all the necessary resources required to carry on this very 
important dual mission. I yield back.
    Mr. Meehan. Well, I want to thank the Ranking Member for 
her opening comment.
    I am going to make a judgment. At 2:27--by the record, they 
expected to call us for votes between 2:20 and 2:30. Now, 
Director, how long do you think your opening statement will be?
    Mr. Sullivan. It is about 4 minutes.
    Mr. Meehan. I think, my math, we should try to get this in, 
and then we will also--please, when you hear the bells go, you 
know that is when the moment for us to begin. But we will have 
a minute or 2.
    Why don't you take your time, do your opening statement, 
and then at the conclusion of your opening statement, we will 
recess, because I am confident we will be called to vote 
thereafter, and then we will return and begin the opportunity 
to ask you a few questions.
    Before I begin, let me just tell, the rest of the committee 
is reminded that opening statements may be submitted for the 
record.
    So we are pleased to have a distinguished witness before us 
today on this important topic.
    Director Mark Sullivan was sworn in as the 22nd Director of 
the United States Secret Service on May 31, 2006. Director 
Sullivan has led a distinguished career at the Secret Service. 
He began his career as a special agent assigned to the Detroit 
field office in 1983. He has held many positions within the 
United States Secret Service, including Deputy Special Agent in 
Charge of the Counterfeit Division; Special Agent in Charge of 
Vice Presidential Protective Division; and also in charge of 
human resources and training; the Assistant Director for the 
Office of Protective Operations; and finally, Deputy Director 
of the Secret Service.
    During his work with the Office of Protective Operations, 
Director Sullivan managed all protective activities for the 
agency encompassing 12 divisions and 2,300 employees. He has 
been the recipient of numerous awards for superior performance 
throughout his 25-year tenure and 30-year career in law 
enforcement. Most recently he was awarded a Distinguished 
Presidential Rank Award.
    Director Sullivan, your entire written statement will 
appear in the record. We look forward to your comments.

  STATEMENT OF MARK SULLIVAN, DIRECTOR, UNITED STATES SECRET 
     SERVICE, UNITED STATES DEPARTMENT OF HOMELAND SECURITY

    Mr. Sullivan. Good afternoon, and thank you, Chairman 
Meehan, Ranking Member Speier, and distinguished Members of the 
committee. I am pleased to appear before you today to discuss 
the investigative and protective mission and challenges of 
2012.
    I would like to thank all the Members for the work you have 
done over the years to ensure that we, our front-line 
employees, have the resources that we need to be effective in 
today's threat environment. This has been especially critical 
given the challenges we have been confronted with in recent 
years. Emerging threats, a historic campaign, increases in the 
number of designated National special security events, and the 
proliferation of cybercrimes directed at our banking and 
financial payment systems has required our front-line employees 
to remain vigilant and adaptable at all times.
    Despite these challenges, the men and women of the U.S. 
Secret Service continue to perform their duties in an 
outstanding manner. In fiscal year 2010, protective details and 
field agents ensured the safe arrival and departure for more 
than 5,900 domestic travel stops and 515 international travel 
stops.
    Foreign dignitary protection reached a record of just over 
2,500 travel stops, including visits by 236 heads of state and 
government. Dignitary protection also included security 
operations for the nuclear security summit and the 65th 
anniversary of the United Nations General Assembly, where we 
staffed protective details for 125 foreign heads of state and 
government and 51 spouses.
    In the area of criminal investigations, our long-standing 
priority of investigating financial crimes prevented roughly 
$13.5 billion in potential loss. Building on that success, the 
number of financial crime cases we closed in fiscal year 2010 
increased just over 7 percent from fiscal year 2009 levels, a 
reflection of our ability to adapt to emerging trends in 
financial crimes.
    We expect fiscal year 2012 to be the most demanding year 
our agency has faced since the 2008 Presidential campaign. The 
biggest demand on our time and resources and our people will be 
the 2012 Presidential campaign, which includes candidate/
nominee protection and the planning, coordination, and 
implementation of security operations for six planned NSSEs.
    In preparation for the 2012 Presidential campaign, we began 
training candidate protective details in May 2011. These 
details recently completed their training and will be 
ultimately assigned to provide protection for Presidential 
candidates. The details are comprised of special agents from 
our domestic offices who operate on 21-day rotational 
assignments. Upon completing their rotating assignment, each 
special agent returns to their respective field office to 
continue their criminal investigations or participate in 
protection assignments in and outside of their district. These 
rotational duties continue through the end of the campaign or 
until the candidate they are assigned to protect withdraws from 
the campaign.
    We are also coordinating with other Federal law enforcement 
agencies that may assist us during the upcoming campaign. As 
they did during the 2008 campaign, we anticipate that the 
Transportation Security Administration officers will, from time 
to time, assist our Uniformed Division officers with the 
security screening at various protective venues.
    Protective advance team training at numerous field offices 
throughout the country has also been completed. This refresher 
training is provided to special agents who will conduct the 
protective security advances for our campaign visits throughout 
the country.
    Both the Democratic National Convention in Charlotte and 
the Republican National Convention in Tampa have also been 
designated as NSSEs. Under the NSSE designation, the 
operational security requirements include protection for the 
convention sites and venues, the candidate nominees and the 
dignitaries, delegates, and general public participating in the 
event.
    In addition to the DNC and RNC, we are also planning for 
four additional NSSEs, including the Asia Pacific Economic 
Cooperation summit in Honolulu in November 2011, the State of 
the Union Address, and the G-20 and NATO summits, both of which 
are scheduled to take place next spring in Chicago, Illinois.
    As the lead Federal agency, law enforcement agency, 
responsible for the operational security plan at NSSEs, we will 
establish multiagency communications centers, or MACCs, for 
each event. Each Federal, State, and local agency with an 
operational role in these events will have command-level staff 
assigned to the multiagency coordinating center. This 
coordination ensures that all agencies have full situational 
awareness and can immediately provide assets or assistance to 
one another if needed.
    In closing, while fiscal year 2012 promises to be a 
challenging year, I am confident that through the determination 
and strong work ethic of our special agents, our Uniformed 
Division officers and our administrative, professional, and 
technical staff, we will successfully meet those investigative 
and protective challenges.
    Mr. Chairman, Ranking Member Speier, and distinguished 
Members of the committee, this concludes my opening statement, 
and I am happy to answer any questions you may have at this 
time or wait until you come back.
    [The statement of Mr. Sullivan follows:]
                  Prepared Statement of Mark Sullivan
                           September 14, 2011
                              introduction
    Good afternoon Chairman Meehan, Ranking Member Speier, and other 
distinguished Members of the committee. I am pleased to appear before 
you today to discuss the anticipated protective and investigative 
challenges the Secret Service will face in fiscal year 2012. In the 8 
years since the Secret Service was transferred to the Department of 
Homeland Security (DHS), the men and women of our agency have made 
significant contributions to the overarching goals of the Department. 
In recent years, the Secret Service has faced emerging threats that 
have required enhancements at permanent and temporary protective sites, 
a historic Presidential campaign, increases in the number of designated 
National Special Security Events (NSSEs), and the proliferation of 
cyber crimes directed at our banking and financial payment systems and 
other critical infrastructure.
    Despite these challenges, the men and women of the Secret Service 
continue to perform their duties in an exemplary manner. In fiscal year 
2010, Secret Service protective details and field agents ensured 100 
percent incident-free protection for 5,906 domestic travel stops and 
515 international travel stops. Foreign dignitary protection reached a 
record 2,495 travel stops, including visits by 236 heads of state and 
government, and 107 spouses from over 147 countries. Dignitary 
protection also included security operations for the Nuclear Security 
Summit in April 2010 and the 65th anniversary of the United Nations 
General Assembly in September 2010. Additionally, the protective 
mission was supported through 7,726 site surveys.
    Thus far in fiscal year 2011 the Secret Service protective details 
and field agents have provided protection at 246 domestic travel stops 
and 49 international travel stops. Further, the U.S. Secret Service has 
already commenced extensive security planning and coordination for the 
Asia Pacific Economic Conference to be held in Honolulu, Hawaii on 
November 12 and 13. Last, we have begun the training of the candidate 
nominee protective details in preparation for the 2012 Presidential 
Campaign.
    In the area of criminal investigations, Secret Service field 
offices closed a total of 9,137 cases in fiscal year 2010, an increase 
of 7.8 percent over fiscal year 2009. These cases led to 8,930 arrests. 
Additionally, the Secret Service continued to strengthen our 
partnerships with U.S. Attorney offices, sustaining a high conviction 
rate of 99.3 percent for all cases that went to trial. The Secret 
Service's longstanding investigative priority of combating financial 
crime led to an estimated $13.5 billion in potential losses prevented, 
of which $6.95 billion was tied to cyber crimes. Building on these 
successes, the number of financial crime cases closed increased 7.1 
percent from comparable fiscal year 2009 levels, and resulted in 5,589 
arrests, a reflection of the Secret Service's ability to adapt to 
emerging financial and cyber crime threats.
    In her appearance before the House Security Committee in March 
2011, Secretary Napolitano noted that, ``Today's threat picture 
features an adversary who evolves and adapts quickly and who is 
determined to strike us here at home--from the aviation system and the 
global supply chain to surface transportation systems, critical 
infrastructure, and cyber networks.'' In the past 2 years, the 
attempted assassination of the Deputy Interior Minister of Saudi Arabia 
and the failed detonation of an explosive device on Delta/Northwest 
Airlines flight 253 have illustrated the importance of advanced 
screening techniques. Additionally, as evidenced by materials 
discovered during the search of Osama bin Ladin residence, our 
protectees remain a highly sought-after target by terrorist 
organizations. However, even in a general sense, a heightened threat 
environment for our country is an obvious concern to the Secret 
Service, since many aspects of our dual mission rely on safe modes of 
transportation, the security of fixed and mobile sites where our 
protectees work and visit, and secure communications.
    As documented through the Department's Quadrennial Homeland 
Security Review\1\ and bottom-up review process,\2\ the Secret 
Service's missions include the protection of our National leaders, 
ensuring the continuity of National leadership, protection of visiting 
heads of state and government, implementation of operational security 
plans and protective activity for designated NSSEs, as well as 
investigating crimes directed towards our Nation's banking and 
financial payment systems.
---------------------------------------------------------------------------
    \1\ Department of Homeland Security. (2010). Quadrennial Homeland 
Security Review Report: A Strategic Framework for a Secure Homeland.
    \2\ Bottom-Up Review Report, July 2010.
---------------------------------------------------------------------------
    The Secret Service anticipates that fiscal year 2012 will be a very 
demanding and challenging year. As you will recall, the 2008 campaign 
presented a number of unforeseen challenges, such as being directed to 
provide candidate protection earlier than any time in history, a 
protracted Democratic primary, massive crowds at campaign rallies all 
over the country, and larger venues to secure. In fiscal year 2012, the 
Secret Service will not only be responsible for candidate/nominee 
protection, but also six anticipated NSSEs: (1) Asia Pacific Economic 
Cooperation (APEC) Summit; (2) Presidential State of the Union Address; 
(3) North Atlantic Treaty Organization (NATO) Summit; (4) Group of 
Twenty (G-20); (5) Republican National Convention; and (6) Democratic 
National Convention.
                         protective operations
    The Secret Service's protection mission is comprehensive, and goes 
well beyond surrounding a protectee with well-armed special agents. 
Over the years, the agency's protective methodologies have become more 
sophisticated, incorporating such tools as airspace interdiction 
systems and chemical, biological, radiological, and nuclear (CBRN) 
detection systems. As part of the Secret Service's continuous goal of 
preventing an incident before it occurs, the agency relies heavily on 
meticulous advance work and threat assessments to identify potential 
risks to our protectees.
    Advances in technology as well as the interdependencies of our 
country's network systems have required a new paradigm in the way we 
approach protection. No longer can we rely solely on human resources 
and physical barriers in designing a security plan; we must also 
address the inherent vulnerabilities of critical infrastructures upon 
which security plans are built. Addressing such potential areas of 
vulnerability is part of the comprehensive security plan the Secret 
Service develops to provide the highest level of protection to 
protectees.
Candidate Protection
    Today, the Secret Service's Dignitary Protection Division is 
responsible for campaign planning and protection. By statute, the 
Secretary of Homeland Security determines who qualifies as a major 
Presidential or Vice Presidential candidate. This determination is made 
in consultation with an advisory committee comprised of the Speaker of 
the House, the Minority leader of the House, the Majority and Minority 
leaders of the Senate, and one additional member selected by the other 
Members of the committee, which has historically been the Sergeant at 
Arms of either the House or the Senate.
    While much has changed in the 43 years since we began protecting 
Presidential candidates, the challenges associated with planning and 
budgeting for candidate protection 2 years ahead of Presidential 
campaigns remain. Forecasting staffing and costs for Presidential 
campaigns is surrounded by a great deal of unknowns, such as the number 
of candidates that will run for the Presidency, how much they will 
travel, and how soon the field of candidates is selected.
    In analyzing past campaigns, one of the first things to consider is 
historical information of the number of Presidential and Vice 
Presidential candidates who received Secret Service protection. The 
number of Presidential and Vice Presidential candidates receiving 
Secret Service protection hit a high point in 1976 with 15 protectees 
and a low point in 2004 with three protectees. However, this 
information does not reflect Secret Service protection for candidate 
spouses and children, both of which have become significant factors in 
recent years as they have been granted protection by Executive 
Memoranda earlier in the campaign cycle.
2012 Presidential Campaign
    Consistent with previous campaigns, the Secret Service's primary 
means for estimating costs associated with candidate/nominee protective 
details is the ``protection day.'' The protection day calculation 
includes costs such as travel, per diem, hotels, and overtime required 
to sustain a candidate/nominee protective detail for 1 day. It should 
be noted that factors outside of the Secret Service's control, such as 
the frequency of travel, events with large venues and crowds, or 
international travel by the candidates also impact cost.
    In addition, the projected number of protection days is critical to 
the overall estimated cost of the campaign. Although we cannot predict 
exact start and end dates of when candidates and their dependents 
receive protection, we can identify a range of how many total 
protection days will be required. To achieve this estimate, the Secret 
Service performed a probability-based analysis which incorporated 
historical campaign information, recent trends in candidate protection, 
and other factors such as anticipated primary schedules.
2012 President Campaign/Candidate Nominee Operation Section Training
    In preparation for the 2012 Presidential Campaign, the Secret 
Service's Dignitary Protective Division--Candidate Nominee Operation 
Section (CNOS) in conjunction with the JJRTC began the training of 
protective details in May 2011. All of the protective details are 
expected to have completed training by the end of August 2011 and will 
ultimately be assigned to provide protection for a Presidential 
candidate.
    The CNOS protective details are comprised of special agents from 
our 142 domestic field offices. The CNOS details operate on 21-day 
rotational assignments. Upon completing their protective rotation, they 
return to their respective office and continue their criminal 
investigative cases or participate in protection assignments in their 
district. Agents assigned to a candidate protective detail continue on 
this protection rotation through the end of the campaign or until the 
candidate they are assigned to protect withdraws from the campaign.
    Additionally, the CNOS initiated a training program to prepare 
other Federal law enforcement agencies that may assist the Secret 
Service during the 2012 Presidential Campaign. At this time, we 
anticipate that Transportation Security Administration officers will 
periodically assist the Secret Service Uniformed Division Officers with 
security screening operations at various protective sites. The CNOS has 
also started ``Protective Advance Team Training'' at numerous Secret 
Service Field Offices throughout the country. During this training, 
refresher training is provided to special agents who will conduct the 
protective security advances for campaign visits throughout the country 
during the 2012 Presidential Campaign.
National Special Security Events (NSSEs)
    In addition to candidate/nominee protection, the Secret Service 
will be responsible for the security planning for six anticipated NSSEs 
in fiscal year 2012, the APEC Summit; the Presidential State of the 
Union Address; the NATO Summit; the G-20 Summit; the RNC; and the DNC. 
Title 18 U.S.C.  3056 (e)(1) and various Presidential directives over 
the years have established the Secret Service as the lead Federal 
agency responsible for the planning, coordinating, and implementing 
security operations for NSSEs. Federal partners are critical to the 
overall success of these events with the Federal Bureau of 
Investigation responsible for crisis management and the Federal 
Emergency Management Agency responsible for consequence management.
    Due to the extensive planning and coordination efforts required for 
an NSSE, the Secret Service has already temporarily transferred 
personnel to plan, coordinate, and implement the security operations 
for the APEC Summit. To ensure effective coordination and planning, the 
Secret Service has established a Steering Committee with 24 
subcommittees to cover all areas of the security plan. For several 
months now, special agents from the Office of Protective Operations/
Dignitary Protective Division have been on the ground meeting with 
their State and local law enforcement partners, fire safety personnel, 
first responders, military, and numerous other entities to ensure the 
overall security plan for the APEC Summit.
    In addition, we recently learned that the NATO Summit and the G-20 
will be held in Chicago, IL next spring. Senior staff from our Chicago 
Field Office has already engaged their State and local law enforcement 
partners in Illinois to begin the critical security planning and 
coordination for these events.
Information Sharing with Our Law Enforcement Partners
    Due to the dual mission of the Secret Service, we have always 
maintained a close working relationship with our State and local law 
enforcement partners. On a daily basis, special agents assigned to 
domestic field offices work criminal investigations with their State 
and local partners. These preexisting relationships allow the Secret 
Service to perform its protective responsibilities seamlessly. When a 
protective visit is scheduled, the Special Agent in Charge of that 
office immediately contacts the Chief of Police, the Sheriff, and State 
Police to convene a police meeting and discuss the security planning 
for the upcoming protective visit. At this meeting, the Secret Service 
provides information concerning the visit with our law enforcement 
partners. We then establish teams, consisting of Secret Service agents, 
State, and local law enforcement for each aspect of the protective 
visit. Sharing this critical information and working together ensures 
that all necessary entities have full awareness of the anticipated 
protective movements and can thus plan accordingly.
    As the lead Federal law enforcement agency responsible for the 
security planning, coordination and implementation and operations at 
NSSEs, the Secret Service will establish the Multi-Agency 
Communications Center (MACC). During the NSSE, each agency that has an 
operational role in the NSSE will have command-level staff in the MACC. 
This coordination ensures that all agencies have full simultaneous 
situational awareness of events occurring and can immediately provide 
assets or assistance to one another if needed.
    For example, the majority of threat investigative cases are worked 
by our special agents in our domestic field offices. When investigating 
threats made against any of our protectees, the Secret Service 
frequently works with our State and local partners. Often, individuals 
who have made threats against our protectees may have also made threats 
against State and local officials or are at least known to the local 
and State law enforcement community. Consequently, communicating and 
sharing information with our local and State partners is critical to 
the success of these investigations.
                        investigative operations
    The partnerships that the Secret Service relies on to successfully 
perform our protection responsibilities are cultivated at the field 
office level. In addition to the permanent protective details dedicated 
solely to the protection of our Nation's leaders, the backbone of the 
Secret Service is our network of 142 domestic and 23 international 
investigative field offices, which carry out protective intelligence 
and financial crimes investigations while providing the surge capacity 
needed to successfully carry out its protection responsibilities.
    All Secret Service special agents begin their career as a criminal 
investigator in a field office. The training, judgment, and maturity 
they develop as criminal investigators in their field office 
assignments are essential to the transition into the next phase of 
their careers--protecting our Nation's leaders. During their time in 
the field, special agents are routinely assigned to temporary 
protective assignments. This developmental period enhances their skills 
in both the protective and investigative arenas and promotes the 
philosophy of having a cadre of well-trained and experienced agents 
capable of handling the Secret Service's dual mission. By conducting 
criminal investigations, special agents develop relationships with 
local, State, and Federal law enforcement partners that prove critical 
when protectees visit their district. These relationships also enhance 
investigations into protective intelligence investigations against 
Secret Service protectees.
    Moreover, the effective relationships we have developed with our 
international law enforcement partners are attributable to our long-
term commitment to work with the host nation in a cooperative 
environment. This environment fosters relationships built on trust and 
mutual respect, and results in the sharing of information and best 
practices. Where permanent stations are not available, the Secret 
Service relies on temporary assignments to respond to emerging trends 
in overseas counterfeiting and other financial crimes.
Cyber Crime Investigations
    Beyond the support that investigative field offices provide to the 
protection mission, the Secret Service's investigations into financial 
crimes has prevented billions of dollars in losses to the American 
taxpayer over the years. In recent years, Secret Service investigations 
have revealed a significant increase in the quantity and complexity of 
cyber crime cases. Broader access to advanced computer technologies and 
the widespread use of the internet has fostered the proliferation of 
computer-related crimes targeting our Nation's financial 
infrastructure. Current trends show an increase in network intrusions, 
hacking attacks, malicious software, and account takeovers resulting in 
data breaches affecting every sector of the American economy.
    While cyber criminals operate in a world without borders, the law 
enforcement community is constrained by jurisdictional boundaries. 
Therefore, the international scope of these cyber crime cases has 
increased the time and resources required for successful investigation 
and adjudication. To address the threats posed by these transnational 
cyber criminals, the Secret Service has adopted a multi-faceted 
approach to investigate these crimes while working to prevent future 
attacks. A central component of our approach is the training provided 
through our Electronic Crimes Special Agent Program (ECSAP), which 
gives our special agents the tools they need to conduct computer 
forensic examinations on electronic evidence obtained from computers, 
personal data assistants, and other electronic devices. At the end of 
fiscal year 2010, more than 1,400 special agents were ECSAP-trained.
    Since 2008, the Secret Service has provided similar training to 932 
State and local law enforcement officials, prosecutors, and judges 
through the National Computer Forensics Institute (NCFI) located in 
Hoover, AL. Prior to the establishment of the NCFI, the Secret Service 
provided training to State and local law enforcement officials through 
the Electronic Crimes State and Local Program (ECSLP).
    The Secret Service's commitment to sharing information and best 
practices with our partners, the private sector, and academia is 
perhaps best reflected through the work of our 31 Electronic Crimes 
Task Forces (ECTFs), including two international task forces in Rome 
and London. Currently, membership in our ECTFs include: 4,093 private 
sector partners; 2,495 international, Federal, State, and local law 
enforcement partners; and 366 academic partners.
    To coordinate these complex investigations at the headquarters 
level, the Secret Service has enhanced our Cyber Intelligence Section 
(CIS) to identify transnational cyber criminals involved in network 
intrusions, identity theft, credit card fraud, bank fraud, and other 
computer-related crimes. In the past 2 years, CIS has directly 
contributed to the arrest of 41 transnational cyber criminals who were 
responsible for the largest network intrusion cases ever prosecuted in 
the United States. These intrusions resulted in the theft of hundreds 
of millions of credit card numbers and the financial loss of 
approximately $600 million to financial and retail institutions.
Counterfeit Suppression
    The Secret Service remains committed to suppressing the 
counterfeiting of U.S. currency around the world. Domestically, $8.2 
million of counterfeit U.S. currency was seized before entering public 
circulation in fiscal year 2010, an increase of 7.9 percent over fiscal 
year 2009. Our international field offices seized $261 million, 
representing an increase of 170 percent over fiscal year 2009, and a 
734 percent increase over fiscal year 2008. These seizures included the 
suppression of 428 counterfeit plants.
    The effective relationships we have developed with our 
international law enforcement partners are attributable to our long-
term commitment to work with the host nation in a cooperative 
environment. This environment fosters relationships built on trust and 
mutual respect, and results in the sharing of information and best 
practices. Where permanent stations are not available, the Secret 
Service relies on temporary assignments to respond to emerging trends 
in overseas counterfeiting and other financial crimes.
    One example of this is the Secret Service's response to the 
proliferation of counterfeit originating in Peru. From fiscal year 2008 
to fiscal year 2009, the Secret Service noted a 156 percent increase in 
the worldwide passing activity of counterfeit U.S. currency emanating 
from Peru. In response to this increase, which was second only to the 
domestic passing of digital counterfeit in fiscal year 2008, the Secret 
Service formed a temporary Peruvian Counterfeit Task Force (PCTF) in 
partnership with Peruvian law enforcement officials. Since beginning 
operations in Lima, Peru on March 15, 2009, the PCTF has yielded 50 
arrests, 21 counterfeit plant suppressions, and the seizure of more 
than $33 million in counterfeit U.S. currency. To date, Secret Service 
personnel have conducted 44 temporary duty assignments to Peru. Due to 
the overwhelming success of the PCTF, the Secret Service and Peruvian 
law enforcement officials agreed to extend operations in 6-month 
increments throughout fiscal year 2011.
                    james j. rowley training center
    The Secret Service endeavors to recruit, develop, and retain a 
diverse and well-qualified workforce necessary for meeting the 
challenges I have discussed here today. That is why the training 
provided through the agency's JJRTC is so critical. In a single year, 
hundreds of newly-hired special agents, Uniformed Division officers, 
special officers, and technical personnel undergo extensive training in 
protective methodologies used to protect major sites and events, 
firearms marksmanship, use of force/control tactics, financial crimes 
investigations, cyber forensic training and other courses. The Secret 
Service also offers protective security and other training to our 
Federal, State, and local law enforcement personnel from across the 
country, as well as our international partners.
                               conclusion
    I would like to thank the subcommittee for holding this hearing. I 
am confident that through our determination and strong work ethic, our 
special agents, Uniformed Division Officers and our Administrative 
Professional and Technical staff, the Secret Service will successfully 
meet the challenges ahead.
    Thank you again for the opportunity to be here today. I look 
forward to working with the subcommittee and would be happy to answer 
any questions you may have at this time.

    Mr. Meehan. Well, Director Sullivan, you are probably the 
one guy that is used to changes in schedules and being quick on 
the fly. But I received a note from the cloakroom that they 
expect to call this vote in just a minute or 2, and so my 
judgment is that what we will do is recess for the moment and 
look to return as quickly as possible after those votes are 
concluded. I think we have a short string of votes, and we will 
begin the questioning. I will encourage my colleagues to come 
back and join us for the opportunity to speak with you. Okay?
    Mr. Sullivan. That would be great. Thank you, Chairman.
    Mr. Meehan. Thank you.
    We will stand adjourned until conclusion of votes.
    [Recess.]
    Mr. Meehan. The Subcommittee on Counterterrorism and 
Intelligence, looking at the United States Secret Service, 
Examining Protective and Investigative Missions and Challenges 
in 2012, is called back to order.
    Secretary Sullivan, I thank you for your opening statement, 
and I now recognize myself for 5 minutes of questioning.
    Secretary Sullivan, right now we are in the beginning of, I 
think, something that interests so many Americans, which is 
what they generally associate the Secret Service with, which is 
the protection of the President in a campaign cycle, but in 
addition you have responsibilities to protect any number of 
candidates who would like to be the President. As a result, 
great challenges.
    Can you tell me how it is that you begin the process of 
distinguishing among the many who are out there to identify and 
determine whom you will provide services for, when you make 
those calculations, and how you distinguish what kinds of 
resources need to be put together for any one particular among 
them as they begin the process once they qualify?
    Mr. Sullivan. Yes, Chairman. Thank you.
    Well, first of all, the Department of Homeland Security 
Secretary is the person who decides who does receive protection 
from us for a campaign. She makes that--he or she makes that 
decision in consultation with an advisory committee, and they 
will determine who is a major candidate and if, in fact, 
protection is needed.
    That advisory committee is made up of the Majority leader 
of the Senate, Minority leader of the Senate, the Speaker of 
the House, the Minority leader of the House. There is a fifth 
at-large member, and for the last several campaigns that has 
been on a rotating basis either the Sergeant at Arms for the 
Senate or the Sergeant at Arms for the House.
    This protection, the candidate needs to come forward and 
make that request for protection in order to be considered. 
There is certain criteria that the committee will look at. The 
Secretary has already sent letters up to all of these Members 
outlining what that criteria is, but they will take a look at 
that criteria. If need be, they will take a look at the--they 
will request us to do a threat assessment, and then based on 
all this, the information they get from the--from these 
guidelines they are given, they will make a determination if, 
in fact, protection should be initiated.
    Mr. Meehan. When you say ``a threat assessment,'' what does 
that mean? You will do a threat assessment about what?
    Mr. Sullivan. We will do a general threat assessment for a 
particular individual. We will do a general threat assessment 
just what is going on at this period.
    Mr. Meehan. So one person may actually include a different 
kind of level of threats, or a nature of threats against one 
person, at least as you anticipate them, may be different from 
another candidate?
    Mr. Sullivan. That is correct.
    Mr. Meehan. Then how do you respond to those 
determinations, and when will they make those kinds of 
determinations so that you are able to calculate where and how 
you move your resources around in this coming year?
    Mr. Sullivan. What we will do is take a hard look at who 
that particular individual is we are going to be protecting. We 
try to--we try to take into account where they are going to be 
going, what they are going to be doing. Again, we assume these 
people are actively out there campaigning. What we begin to do, 
and, quite frankly, we start this the day after the 
inauguration, we begin to put a plan together in place for the 
next campaign. We do an after-action report on the previous 
campaign. We look at lessons learned, and we begin to put our 
plan together.
    What we have been doing over the last year now, we have 
purchased equipment, we have identified the staffing 
requirements for each detail, we have put together----
    Mr. Meehan. Are they the same as they have been in years 
past in light of the----
    Mr. Sullivan. Pretty much. We make different--there are 
different modifications we make, and, of course, there are 
different countermeasures we have added as we have gone along. 
As the threat has evolved, our reaction to that threat----
    Mr. Meehan. The threat, I assume, in some ways is more 
sophisticated each cycle.
    Mr. Sullivan. That is correct.
    But right now we have trained upwards of about 12- or 1,400 
people to go out and to staff these details. These people that 
we use to staff these details are people that work out in the 
field. That is why our field office infrastructure is so 
important. They are the backbone of the campaign for us.
    Mr. Meehan. I have a number of questions I would like to 
ask to follow up on those particular points, but I have always 
been curious about one thing, which is the very nature of these 
political campaigns means that they can be very precarious. An 
issue one day can change a candidate's travel from one 
purported location to another on a minute's notice. Yet I know 
that especially when you get to the point where it is narrowed 
to a few critical candidates, you spend sometimes days ahead of 
the arrival of a particular candidate in a location assuring 
the safety of that.
    How does the changing nature of candidates' routines affect 
your work? Is there any consideration given if somebody decides 
that they want to go to a different location on a moment's 
notice? How do you deal with that? Is that taken into 
consideration by candidates?
    Mr. Sullivan. You know, that is a great point, Chairman. 
Again, I come back to our field office people and how important 
it is for our people out there in the field to have really 
good, strong relationships and communication with our State and 
local law enforcement partners. They really do make this work 
for us.
    To your point, we do see it where a candidate will--we will 
be told maybe 1 day, 2 days prior that we are going to be going 
to a certain city. I know when I was an agent in charge out in 
the field, there were many nights I would call a local law 
enforcement counterpart to let them know that we were going to 
be having a visit in 2 days, and we would put together a police 
meeting.
    One of the things we do for every visit that we have 
regardless if it is a week or if it is 2 days, we will get all 
of our State and local partners together, have a police meeting 
with them and all of our other Federal law enforcement partners 
if they are involved, and we will outline for them the 
itinerary of the particular protectee or candidate. We will 
give them any threat assessment that we may have, any issues we 
have going on. We will ask them if there are any issues on 
their end. But we will pretty much put a plan together.
    I will tell you, every visit we have goes off without a 
hitch, and it is because of that great relationship and the 
hard work by our State and local law enforcement partners and 
our people.
    Mr. Meehan. Well, thank you, Director.
    My time has expired, and I now turn it to the Ranking 
Member, Ms. Speier.
    Mr. Sullivan. Thank you, Chairman.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you, Director Sullivan, for being with us.
    I would like to start my questioning on the issue of on-
line content, and do you have the kinds of resources you need 
to do your job in a platform that is dramatically changing as 
we speak? For example, this last summer the twitter account of 
FOXNews was hacked into, and someone tweeted a number of times 
that President Obama had been assassinated.
    How do you access that? How are you able to determine it is 
a hoax? How do you monitor threats? Do you have the kinds of 
resources you need to comb the internet for potential 
terrorists and for acts like the one I just mentioned?
    Mr. Sullivan. Thank you. When I was a new agent, a lot of 
times if you got a threat, it would come in the mail, and if 
the person who was making the threat was very courteous, they 
would put their return address on there. You would know who to 
go out and talk to.
    But regardless of whether it is by mail or over the 
internet, our people are extremely aggressive with that. Again, 
I go back to just how much the duality of our mission does help 
us with our protection. What we learn as investigators and what 
we have learned working our financial crimes through our 
Electronic Crime Task Force and our electronic crime special 
agent program really has helped us with our--with these 
internet threats we have.
    We do have an internet threat desk. We do work with all of 
our State and local and Federal partners. We do comb the 
internet. We have a system right now that people are working 24 
hours a day just going through the internet looking for any 
type of buzzwords or any type of threatening or inappropriate 
activity out there that we may see that involves any of our 
protectees.
    But I would say that we have a very robust system and some 
very qualified and good people that are working these type of 
threats. I will also tell you that when we do identify that 
individual who has made that threat or that inappropriate 
interest that they are displaying, whether it is 2 o'clock in 
the morning or 2 o'clock in the afternoon, our people are out 
there looking for that individual to interview them.
    Ms. Speier. So you have enough nerds working for you?
    Mr. Sullivan. I am sorry ma'am.
    Ms. Speier. You have enough nerds working for you?
    Mr. Sullivan. We have some really qualified people who have 
some great cyberskills.
    Ms. Speier. All right. Very good.
    At the hearing 2 years ago, you said, ``And I tell all of 
our people that we can't just depend on human resource people 
to do our recruitment, that everybody in this organization has 
to be a recruiter.'' This was in response to an issue of 
diversity within the Service.
    Can you speak to how that has improved and what steps you 
have taken since making that statement to make sure that your 
recruitment is robust in terms of making sure you have a 
diverse group of people serving?
    Mr. Sullivan. Yes, ma'am, and I continue to do that at 
every office meeting I have, every town hall meeting I have. I 
bring that up, we talk about recruitment. Again, I say that 
with due respect to HR, but I really do think if any 
organization--if you are going to depend on HR to do all your 
recruitment for you, you are going to fail. It has to be the 
job of every employee in your organization to be out there 
recruiting.
    Ms. Speier. Do you have some numbers that you can share 
with us about how it has improved?
    Mr. Sullivan. Ma'am, I can get you those numbers.
    Ms. Speier. Can you get those?
    Mr. Sullivan. I would be more than happy to do that.
    Ms. Speier. Thank you.
    Mr. Sullivan. I will tell you that I meet with every new 
agent class and every new Uniformed Division class before they 
graduate, generally the numbers being 22, 23, 24 officers and 
agents in every class. I will meet with them for an about an 
hour, hour and a half or so, along with our Deputy Director, 
and the first thing each of us look at is the make-up of that 
class.
    I can tell you that the classes that I have been meeting 
with over the past few years have been one-third--we had a 
couple recently that were one-half women and minorities. So I 
will tell you that I do not feel that we are where we need to 
be, but I will tell you I continue to see it improving. I 
believe in role models----
    Ms. Speier. I think you have answered the question. I want 
to get one more question in before my time expires, and that is 
on financial crimes.
    Many of your counterfeit investigations and operations are 
located in South America. We have been focused on this 
committee on the role of Hezbollah in South America and Central 
America, and to what extent they are coming into the United 
States to do their fundraising. Can you enlighten us on any 
information you have about your efforts and your focus in South 
America?
    Mr. Sullivan. Yes. We started several years ago in 
Colombia, in Bogota, with counterfeit currency. Most of the 
offset of the traditional type of counterfeit that we saw was 
coming out of South America. We partnered up with the Colombian 
police, with their vetted forces, and we made a significant 
dent in the amount of--in securing counterfeit currency before 
it was put out into the market, before it came into our 
country, being aggressive down there with counterfeit currency. 
We have seen as a result a lot of the counterfeiting we have 
seen in Bogota is now going into Peru, and we are about to open 
an office in Peru. But most of our efforts, Congresswoman, are 
focused on counterfeit currency in South America.
    Mr. Meehan. Thank you, Ranking Member Speier.
    At this point, I will turn to questions to the gentleman 
from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Director Sullivan, I want to thank you for all of your 
service to this country, and also all the people of the Secret 
Service all their fine service they have done as well in 
keeping us all safe at night so we can lay down our heads. So 
thank you, sir, to all your people.
    Specifically in your testimony you highlighted the work the 
Secret Service does, investigate cyber-related crimes and 
suppressing counterfeiting. In previous years we have read a 
lot about states like North Korea, for example, that have been 
heavily involved in counterfeiting U.S. currency.
    In your testimony you note that there has been a dramatic 
increase in worldwide counterfeiting throughout the U.S. 
currency. I am interested to know over the past 3 years, has 
the Secret Service observed a rise in the percentage of state-
sponsored counterfeiting and cyber-related criminal activity? 
If so, what is the most prevalent kinds of state-sponsored 
crimes?
    Mr. Sullivan. As far as state-sponsored crimes go, 
Congressman, if we do come up with anything that we believe to 
be state-sponsored or terrorism, we turn that over to the FBI.
    Our focus is mainly on criminal violations. What we are 
seeing, quite frankly, and a lot of it is coming out of Eastern 
Europe, is an increase in cyber intrusions, network intrusions, 
where these individuals are intruding into financial systems, 
banking power system. There is a whole loosely organized group 
there where one group will do the intrusion; another group may 
buy those numbers, traffic those numbers out. But our focus is 
mainly on the criminal financial aspect of these particular 
individuals.
    Mr. Cravaack. Thank you.
    Now, in the interest of expanding your investigative arm, 
in all of basically the brief history the Chairman has given us 
and you gave us a little bit earlier, what is your perfect 
Secret Service in the next 5 years? What would it look like?
    Mr. Sullivan. We are--I have to tell you we are recruiting 
an incredible workforce. The people that we are recruiting 
right now are coming into it, they have a very good cyber 
background, it is second nature to them.
    But I believe we need to just continue to maintain and 
evolve with the threat as we see it and stay ahead of it, stay 
ahead of the threat. I am looking for our organization to be 
diverse, reflective of our society. I want us to continue to be 
proactive to those threats that we are seeing out there every 
day. I am looking for us to make sure that as we see the 
country change, that we change with it as far as shift in 
population, that we put our resources where they need to be. I 
want our people to look--we give our agents in charge out there 
in the field--we want them to have the freedom to take a hard 
look at, you know, what is it that is going to have the high 
impact in that location. You know, what might be a priority in 
New York isn't going to be a priority in Los Angeles.
    But we just have a really good, I believe, workforce out 
there, looking to work extremely hard and evolve with the 
threat.
    Mr. Cravaack. There has been some debate whether the 
Department of Homeland Security is the most appropriate place 
for the Secret Service. Can you expound upon that and give us 
what your thoughts are?
    Mr. Sullivan. Sure. We came over to the Department of 
Homeland Security back in March 2003. We came over from the 
Treasury Department. We had been there for 138 years. I think 
as with any agency entering an organization where there is 
going to be over 200,000 people, I think there is going to be 
some growing pains.
    I believe when you look at the QHSR, and you look at the 
result of that, I think you will see that there is a place for 
the U.S. Secret Service within the Department of Homeland 
Security. The purpose of the Department of Homeland Security is 
to keep the homeland safe and to keep our American way of life 
safe. I believe that is what we do by protecting those people 
we are entrusted to protect and by protecting our financial 
infrastructure.
    Mr. Cravaack. As the Secret Service expands its 
investigative arm, do you think that is going to inhibit your 
mission on the protection side, or how do you think you are 
going to be able to balance all that?
    Mr. Sullivan. I think it enhances it. When you look at all 
the people that we have on protection details, all of us start 
the same way. We all begin our careers in a field office. We 
all begin learning about the organization, we learn how to be 
criminal investigators. Everybody is an 1811 criminal 
investigator. We are out there interviewing people, we are 
learning how to evaluate people, we are learning how to 
evaluate situations. I think it just makes us better at 
protection.
    You look at the way we have evolved with some of the things 
we do, we go out and we do a protective advance, a lot of what 
we do now is to go out and protect that critical 
infrastructure, you know, the elevator systems, the 
transportation systems, the air infiltration systems, the water 
purification. Years ago those would be attacked manually. Today 
they are attacked remotely. These skills that Ranking Member 
Speier had asked me about as far as cyber, we learn that as 
investigators it helps us with our protection.
    So I believe that the duality of our mission really does go 
hand-in-hand, and what makes us better in protection is what we 
learn as investigators, and what we makes us better in 
investigation, I believe, is what we have learned in 
protection.
    Mr. Cravaack. Thank you, sir. I appreciate your time, and I 
yield back, sir.
    Mr. Sullivan. Thank you, Congressman.
    Mr. Meehan. We are hoping your material works better out in 
the Secret Service than our buzzers do here in the Budget 
Committee, but as I noted before----
    Mr. Sullivan. We can come take a look at it for you, sir.
    Mr. Meehan [continuing]. They are cutting everything these 
days in Washington.
    Thank you, Mr. Craavack.
    Let me take a moment before I recognize our next 
Congressperson for questioning to welcome Ms. Hahn to our 
subcommittee. To the best of my knowledge, this is the first 
time that we have been sitting together, so we collectively 
welcome you to the committee and look forward to working with 
you on the important matters ahead.
    So the Chairman recognizes the gentlewoman from California 
Ms. Hahn.
    Ms. Hahn. Thank you, Chairman Meehan, for that gracious 
welcome, and to Ranking Member Speier. This is my first 
subcommittee meeting, but I am really looking forward to 
serving on the subcommittee as I think the issues are extremely 
important and extremely relevant to my district at home.
    Director Sullivan, I appreciate your testimony today before 
us. In 2001, the U.S. PATRIOT Act mandated the Secret Service 
to establish a Nation-wide network of electronic crimes task 
force, and my own city in Los Angeles in 2002, the Los Angeles 
Electronic Crimes Task Force was created and was tasked with 
working with Federal, State, and local law enforcement in 
providing network security and digital data recovery.
    Can you tell me a little bit more about the role of this 
agency, its current initiatives? How does this task force work 
with local law enforcement, including LAPD, L.A. County 
sheriffs?
    Mr. Sullivan. Yes, ma'am. The Electronic Crime Task Force 
concept has been an incredible success for us, I believe. We 
had our first original one in New York going back to the late 
1990s.
    What the Electronic Crime Task Force does is it brings 
everybody under one roof going after the same people, and 
Nation-wide we have 29 electronic task forces Nation-wide, 
which brings, I think, into play about 2,500 State and local 
law enforcement. We have got about 1,800 or 2,000 members who 
are from the financial and banking industry, and we have about 
350 people from academia.
    But really this is a great force multiplier. It is all 
about partnership. These people coming into the same office 
every day working together going after the same people.
    Training is also a very critical part of what we do. All of 
our special agents, when they go through their initial training 
period as new agents, they get a basic computer class, computer 
training, and then from there they get into more training. We 
have three different levels of training for all of our agents. 
We have the basic training, we have cyber or network intrusion 
training, and then we also have forensic training.
    As a result of how well that has done for our people, in 
cooperation with the Department of Homeland Security and the 
State of Alabama, we have opened up in Hoover, Alabama, a cyber 
training institute for State and local law enforcement as well 
as local prosecutors. So far we have put about 1,000 people, 
State and local law enforcement, through that training, giving 
them the same--again, a force multiplier. Many of these people 
are involved in our Electronic Crime Task Forces, but they are 
able to go out--we get them the equipment, we give them the 
training, and they are able to go out and do the same thing our 
agents are doing.
    Ms. Hahn. Let me ask you one other question. 
Interoperability is a problem that was identified when we heard 
the 9/11 report card in the Homeland Security Committee. It was 
one of the major lessons we learned that day on 9/11: The 
inability of our first responders to communicate resulted in a 
loss of lives. Ten years later apparently we still haven't been 
able to create and fund that system. I know my district has the 
Port of Los Angeles in it, L.A. International Airport, and I am 
always hearing from my local law enforcement agencies that the 
need for a National interoperability communications system is 
vital.
    The Secret Service, do you see that as a problem as well? 
What is your ability to communicate with first responders in a 
crisis situation?
    Mr. Sullivan. I think that is part of the reason when we 
put any event together, we are always going to be planning 
for--we want every single trip and every single visit to be a 
success, but you always have to plan for the worst-case 
scenario. That is why, again, I go back to the police meetings 
we have and why they are so important, and why we--for each 
event we do have--if it is an NSSE, we have a multiagency 
coordinating center, and in that multiagency coordinating 
center, we are going to have every command-level individual 
from every single department is going to be represented in 
there, and that could be anywhere from 50 to 55 people. So if 
an incident does occur, we are all going to be in there 
together, everybody is going to have the same information, and 
everybody is going to be able to talk to each other and respond 
to that particular threat.
    But I would agree with--I would agree with the assessment 
that you are getting from your State and local law enforcement 
that there is more work that needs to be done with 
interoperability.
    But I do think that we, working with our partners, when we 
are working on these planned events, we are taking into account 
every contingency to make sure we do have the best 
communication plan we can have if an incident were to occur.
    Ms. Hahn. Thank you.
    Mr. Meehan. Thank you, Ms. Hahn.
    Now the Chairman recognizes the gentleman from Arizona, who 
may know a little bit about this from previous experience. So 
the gentleman from Arizona, Mr. Quayle.
    Mr. Quayle. Thank you, Mr. Chairman, and thank you, 
Director Sullivan, for being here today. Mr. Chairman, you are 
right. I have to say right off the bat that I have had a lot of 
interaction with the men and women of the Secret Service, and 
they are, by far, some of the best and most professional people 
that I have ever had the privilege to be around. So I just want 
to say thank you for running such a great organization, and the 
people in the Secret Service are just tremendous.
    Mr. Sullivan. Thank you, Congressman.
    Mr. Quayle. One thing in your testimony, you raised the 
concern of the widespread use of the internet has led to a lot 
of the proliferation of computer-related crimes that have been 
targeting our Nation's financial infrastructure, and it 
affected virtually every sector of the American economy. How is 
the Secret Service dealing with that threat? Are there any 
areas that you think might be able to be strengthened?
    Mr. Sullivan. Again, I go back to the model we have with 
our Electronic Crime Task Force, where we bring everybody 
together, and what we try to do is just try to stay one step 
ahead of the technology. These people that we are up against 
that are committing these crimes, every time we figure out a 
solution to prevent them from what they are doing, they are out 
looking for the next technology. Their technology is evolving 
the same way as everybody's technology is evolving, and they 
really do take advantage of that.
    So we find by working with academia--we have people at the 
Carnegie Mellon, at the engineering institute there--we work 
with them to again let them see the trends we are seeing, but 
also for them to help us with countermeasures to that and look 
for better law enforcement tools for us to operate on.
    But the best people we have are the people that are dealing 
with this crime out there and just staying current with it, and 
making sure that we get them the training that they need, make 
sure that we get them the equipment they need, and make sure 
that we keep them current.
    Mr. Quayle. Do you think you are staying one step ahead 
rather than being reactive? Because I know in all sorts of law 
enforcement, whether cybersecurity or whatever, it is hard to 
keep that one step ahead, because every single time you think 
you are one step ahead, then you get pinged with another thing 
you hadn't even thought about before.
    Mr. Sullivan. It is a combination of both. I would say a 
lot of it is reactive. We have to see what that threat is out 
there, and then we try to be very aggressive reacting to that. 
We, using different investigative techniques, I think--and 
again, that goes back to how we have prevented about $13 
billion in fraud, whether we are working with informants--you 
know, there is a lot of good--even though we have a new type of 
crime here, we still do rely on good old police work and making 
sure we are out there talking to people who might have 
information, and making sure that our people are out there 
being very aggressive in looking at what the particular crime 
is. But a lot of it is reactive, without a doubt.
    Mr. Quayle. Thank you, Director Sullivan.
    Mr. Chairman, I yield back.
    Mr. Meehan. Thank you, Mr. Quayle.
    I have a couple of follow-up questions myself, and I have a 
few things I would like to ask you, and then I will open it. If 
we have anybody that would like to ask an individual question 
or participate in some follow-up with you, I will invite that 
and allow that as well for a few moments.
    But I want to return, Director Sullivan, to some of the 
line of questioning that I spoke about before, because I 
identify this coming cycle as a moment in which there is going 
to be a great deal of attention on our process and our 
candidates. We have been here watching a transition in the 
world of terror in which we have identified the nature of the 
threat that we saw on September 11 a decade ago, the 
sophisticated ring operating in concert, and now we have begun 
to see, at least experienced here in the United States, to the 
extent that we have had issues with terrorism, it has been 
changed. We have seen individuals operating as lone wolves as 
the word would go.
    In addition, we are seeing a pattern of activity in which 
some from outside of this country are trying to reach back, 
connect with individuals within here. We call this the 
radicalization aspect.
    I am not sure that we have ever dealt with both of those 
while we have conducted a Presidential campaign, or at least to 
the extent that we think it exists today.
    Without going into any particular techniques or other 
things, is this certainly an issue that you and the agency have 
anticipated? How is it that you communicate with our other 
agencies who are looking at the global picture and trying to 
identify risks to the homeland, not the least of which would be 
a risk to an iconic situation like a candidate?
    Mr. Sullivan. Thank you, Chairman.
    I think this is a benefit from us being part of the 
Department of Homeland Security. I know that it is a priority 
for the Secretary to counter violent extremism, and part of her 
strategy is to reach out to the community, make sure that we 
are letting our State and local law enforcement partners out 
there know what we know, and making sure that we have the best 
information out there as well.
    As far as we are concerned, we are a big consumer of 
information. We are not an intelligence component, but for our 
threat reduction, for our risk management, we really do depend 
on the information that we get from all of our partners. I can 
tell you--and I think this past weekend you mentioned the 
events up in New York and Pennsylvania and here in Washington, 
DC, and I can tell the Chairman, the information we got from 
all of our Federal partners out there, whether it was the FBI 
or from the intelligence community, we got tremendous support 
regarding these events, the information that was out there, 
that really did help us put together the best plan we could put 
together. But when we put a plan together, we take into account 
the lone wolf, we take into account the organized terrorist 
attack, we take into account the threat of VBIEDs, of IEDs. All 
of that we take into account.
    Mr. Meehan. The changing nature of the infrastructure out 
there that you have to--it is no longer just the individual 
with a--unfortunately, it is weapons as well have changed.
    Mr. Sullivan. Absolutely. So over the years, as again as I 
have talked about before, as we see that threat evolve, we have 
evolved with it, but I can't emphasize enough just the support 
that we get from all of our State, local, and Federal law 
enforcement partners. We really do succeed because of that 
information and the support we get from them.
    Mr. Meehan. Let me ask one follow-up question related to, 
again, anticipating 2012. I notice we call the special events 
the events of National significance that are going to be 
occurring here. Any one of those would be important, but you 
are going to be in the spring of 2012. That implies that you 
are really at the height of the political season. At the same 
time you are going to be dealing with two rather significant 
incidences that will probably attract international attention. 
My own recollection is whenever the G-20 gets together, it 
becomes an international event unto itself.
    How are you going to be positioned going into the dual 
challenges of dealing with the continuing protection of your 
multiple dignitaries while looking at these very significant 
events that are likely to require a fair amount of security for 
us in this Nation?
    Mr. Sullivan. Again, I go back to our partnership. Right 
now we have had people in Honolulu for a number of months now 
putting together their operational plan for the APEC summit. At 
the same time we have people in Charlotte and Tampa working 
with their State and local law enforcement partners putting the 
plans together for both conventions. We will be naming, or I 
think we have already named, people that are going to be 
working in Chicago on the NATO and the G-20 summit. This is 
going to be their focus.
    What we do for these events, Mr. Chairman, is we have an 
executive steering committee. The executive steering committee, 
the three main Federal partners that are involved in that 
committee would be FEMA for the consequence management, we have 
the FBI for the crisis management, and we have us for the 
operational planning. Then in addition to that, we have the 
State and local law enforcement that are involved in the public 
safety. Their leadership will also be on that executive 
steering committee.
    Underneath that executive steering committee, we would have 
anywhere from about 20 to 25 subcommittees. These subcommittees 
work on different areas that we believe to be issues. We have 
people working on an airport subcommittee, we have the airspace 
subcommittee, we have an intelligence subcommittee, we have 
fire and life safety subcommittee. We have a subcommittee for 
everything you can think of.
    Mr. Meehan. Sounds like Congress.
    Mr. Sullivan. But all these subcommittees, everybody is 
coming into work every single day. So it goes back to what I 
talked about before, Chairman: The collaboration that we have 
out there, the partnership that we have out there, quite 
frankly, if we didn't have that, we could not do this by 
ourself. We really do rely on all of our partners out there to 
make sure that we are able to do the visit. Again, we don't go 
in there and say, we are in charge. We go in there and say, 
this is a partnership, an equal partnership, and everybody is 
valued here, and we really do want to work this together.
    I think this must be working because since 1998, we have 
already done 37 of these, and every one of them seems to get 
better with time, and we learn from each one of them as well.
    Mr. Meehan. I thank you for your collaboration, and I have 
seen it first-hand. The challenges mount, but it certainly 
seems clear the work with the others is particularly 
appreciated, with the locals in particular.
    Mr. Sullivan. Thank you, Chairman.
    Mr. Meehan. Now I would turn to the Ranking Member, Ms. 
Speier.
    Ms. Speier. Two quick questions.
    Many States have the open carry laws, which allow you to 
carry your guns openly. During the Presidential campaign in 
2008, there were assault weapons at some public rallies.
    How do you deal with their Constitutional right to carry 
those weapons and yet make sure that the safety of the 
candidates and the public is provided for?
    Mr. Sullivan. Yes. Our people go out, and we abide by the 
rules of that State. But what we do is we have--at every venue 
we have, we have what we call a secure zone. Nobody is allowed 
into that secure zone, and we make sure that we give ourselves 
enough stand-off distance so that there is no type of weapon 
that is going to be within that area that we believe is going 
to do any harm to us.
    But we also have other protective countermeasures going on 
to make sure that we do identify anybody who is out there with 
the weapon, that we can identify those individuals and make 
sure that we will--that they will not be capable of bringing 
any harm to us.
    But again, it goes back to our partnership with State and 
local law enforcement. They are just so important at what they 
do, and they do help identify those threats to us before they 
get to a point where it might be unmanageable.
    Ms. Speier. Do some States allow for open carry of loaded 
guns?
    Mr. Sullivan. I believe so. I am not--I believe they do, 
though, yes.
    Ms. Speier. All right. My second question and final 
question deals with the issue you had previously where you 
overspent your budget and didn't inform Congress or DHS. What 
steps have you put in place to prevent that from happening 
again?
    Mr. Sullivan. I would just say, for us, we put together 
these type of events with a campaign. It really is very 
difficult for us to forecast out a cost. There is a lot of 
things that come into effect here; the crowds, and the number 
of days, and just a whole myriad of different things.
    What happened in this particular instance was right at the 
end of December 2008, we learned that four additional NSSEs 
were going to be on for during the inauguration. Philadelphia, 
there was going to be a train trip originating in Philadelphia 
coming down to Washington. So Philadelphia; Wilmington, 
Delaware; Baltimore, Maryland; and an event at the Lincoln 
Memorial were all designated as NSSEs.
    As we looked at our budget, we realized that the money that 
we had for the campaign, the transition in the inauguration was 
not going to support these four NSSEs. We notified the 
Department of that challenge and let them know that we needed 
to do a reprogramming.
    You know, one point I do want to be clear on: We did not 
overspend from overall budget, but what happened was we had to 
take money out of one protection line account and put it into 
this NSSE account. So we took it from one protection account 
and put it into another protection account. Unfortunately, we 
did not--a written notification of this was not sent up to 
Congress, and thus we were given this violation.
    Some of the things we have done in the mean time is that we 
do have more frequent interaction with the DHS budget shop on 
this particular issue. There is a lot more oversight 
internally, internal controls that--budgetary controls we have 
to monitor the budget.
    But I will tell you, Congresswoman, I, we as an 
organization, took this to be a very, very serious thing. I 
think if you read the report, it will show that this was not an 
intentional oversight, it was just that these events came at us 
at a very fast pace, and we reprogrammed from our own line 
items that were not within that particular PPA, and the timely 
notification to Congress was not made. We have talked to our 
appropriators on that. We have told them that we will make sure 
not only in written language, but verbally--we will make sure 
that they know we are going to be doing any reprogramming.
    Ms. Speier. All right. I thank you, and I yield back.
    Mr. Meehan. Thank you, Ms. Speier.
    I know the gentleman from Minnesota has one final question.
    Mr. Cravaack. Thank you again, Mr. Director.
    One of the questions I have, in your testimony you have 
kind of alluded to expanding the paradigm of protection to 
include a vulnerable infrastructure. How does the Secret 
Service go about doing that, in the extent of being able to 
talk in an open mike, in protecting our infrastructure and 
moving forward?
    Mr. Sullivan. Again, I go back to what I--you are talking 
about the infrastructure around the event. We have started up 
a--it is called the Computer Systems Protection Division. 
Again, these are all of our agents who have been trained in 
forensic or cyberintrusion, but that these agents are out there 
looking to see if there is anybody out there trying to use 
cyber to attack our systems, looking to make sure that we 
prevent that from happening.
    But again, I go back to the variety of our mission. These 
people that understand protection, understand investigations, 
these are the people that we are using to conduct these 
assessments. For the NSSE, for example, we have a group of 
people that are dedicated to paying attention and being very 
proactive on these issues here.
    But again, I go back to everything that was done manually 
years ago is all being done remotely now either from within 
this country or outside of our country, and we just want to 
make sure that we evolve with that threat and make sure we 
defeat it the same way it is originating, which is via cyber.
    Mr. Cravaack. Is there any areas that you feel the Secret 
Service could use more help in in regards to a soft underbelly 
that you haven't been able to quite reach the challenges that 
are faced?
    Mr. Sullivan. Well, the biggest challenge we have is right 
after I became--one of the biggest issues, right after I became 
Director, I asked that we take a look at our IT infrastructure. 
I guess the best way to describe it, if you are looking for a 
1980 state-of-the-art IT infrastructure, we were your guys. Our 
IT infrastructure was just old, and it needed a lot of support 
and a lot of upgrades to it.
    Working with Congress, working with the Department, and 
working with many others, we have been able to upgrade our IT 
infrastructure significantly. I believe that our IT 
infrastructure now is a lot more secure, I believe it is a lot 
more robust, but we still have a ways to go with that. We have 
stabilized it, but there are still some issues we need to work 
on with our IT infrastructure. I believe as we go further into 
the 21st Century, the better our IT infrastructure can be, and 
all the things we are doing with IT now, if we can get that 
even further improved, I think that is going to help us with 
our operational mission as well as our business enterprise that 
we are doing, and maybe help prevent some of the challenges we 
had with the ADA, for example, like getting us better time 
information on where we are with our budget.
    Mr. Cravaack. Thank you, Mr. Director, and I yield back.
    Mr. Meehan. Thank you, Mr. Cravaack.
    The Chairman notes the rapid ascension of Ms. Hahn on this 
committee, but I know that Ms. Hahn has a concluding question.
    Ms. Hahn. Thanks, Mr. Chairman.
    I thought about it when you asked Mr. Quayle, you 
recognized Mr. Quayle, and you said you have had some 
experience with this. It was something, and you probably all 
know the answer to this question, but who in our Government 
gets Secret Service protection and for how long? Is it all the 
candidates, their spouses, their children, just the nominee, 
Presidents, wives, children? How long after? Who in our 
Government receives Secret Service protection and for how long?
    Mr. Sullivan. Thank you, Congresswoman.
    By statute the people we protect are the President, First 
Lady, their family; the Vice President, Dr. Biden in this case, 
and their family; former Presidents and their spouses; foreign 
heads of state and other dignitaries. I think that is about it 
by statute that are receiving protection right now.
    One of the things I try not to do is name people by names 
because potentially there could be people that aren't receiving 
protection, and people may be under the assumption they are 
receiving protection. But by statute that is pretty much who is 
receiving protection.
    Ms. Hahn. How long after; is it lifetime for all of these?
    Mr. Sullivan. Up until I believe it was 19--2001, it was 
for lifetime for the President and First Lady. There was a law 
passed, I believe, in the mid-1990s now that has outlined that 
protection now for a former President would be for 10 years 
after they leave office.
    Ms. Hahn. Thank you.
    I yield the balance of my time.
    Mr. Meehan. I noted that as I was reviewing the documents--
and that was a very good question. It was one that I was 
wondering as well--and I saw that I think at least from the 
previous, the most recent President on, that they are going to 
put a cap at a certain point after a decade or so and then--so 
that was under statute. So that will be a change moving into 
the future.
    So I want to thank you for your testimony and to the 
Members for questions. Members of the committee may have some 
additional questions, and if they do, I will ask that they be 
submitted to you and you would respond in writing, if you 
would. The hearing record will be held open for 10 days.
    Let me conclude as well we share with you a concern, and a 
supportive concern, for the challenging mission that you have. 
You have done a great job of identifying the expansive mission, 
particularly as we are watching technology change in the focus 
of a global economy with your protection of our money supply, 
so to speak. But as we come particularly into 2012 in this 
time, of which we are well aware the changing nature of the 
world and the identification of America as a target, we stand 
here ready. If there are issues or moments of concern, we hope 
that you will reach back to the committee and at least allow us 
to do our best to be responsive to the questions you might 
have.
    So I thank you for your service and for the service of your 
many partners and agents, who I know, in anticipation of this 
year, will be doing great work for America and for the people 
who you protect. Thank you.
    Mr. Sullivan. Thank you very much, Mr. Chairman. I 
appreciate it.
    Mr. Meehan. Without objection, the committee stands 
adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
